Memorandum from the Office of the Inspector General



March 27, 2013

Robin E. Manning, MR 3H-C

REQUEST FOR FINAL ACTION – AUDIT 2012-14607 – TVA METER TESTING



Tennessee Valley Authority’s (TVA) meter testing is a key internal control in its revenue
recognition process after the move from end-use billing to wholesale billing. Since it is a
key control, we performed an audit of the adequacy of TVA’s process for testing meters
that are owned and read by TVA. Our audit included (1) evaluating whether TVA meter
testing policies and procedures meet or exceed identified industry standards, (2) verifying
TVA tested meters within the applicable time limits in compliance with TVA meter testing
policies and procedures, and (3) determining if TVA has processes in place to identify all
meters used to capture data for wholesale billing purposes.

In summary, we determined TVA’s meter testing (1) complies with TVA policies and
procedures regarding timeliness and (2) meets identified industry standards. However,
we noted areas for improvement in TVA’s meter testing processes including
(1) verification of meter constants,1 (2) reconciliation of meter information in TVA systems,
and (3) consistency of testing documentation.

We recommend TVA’s Executive Vice President and Chief Energy Delivery Officer
(1) formalize the policy for testing and/or documenting meter constants as part of
preventative maintenance; (2) develop a process or procedure for reconciling meter
information included in the Maximo, Itron Enterprise Edition (IEE), and Lodestar systems;
and (3) develop guidelines for acceptable documentation of meter tests including
information requirements, review, and maintenance. TVA management agreed with the
audit findings and recommendations in the report and has taken or plans to take corrective
actions. See the Appendix for TVA’s complete response.

BACKGROUND

On April 1, 2011, TVA moved from distributors self-reporting customer usage (end-use
system) to billing distributors based on actual energy and demand takings using meter
readings (wholesale system). On September 30, 2012, TVA had wholesale power
contracts with 155 municipalities and cooperatives. TVA also sold power to directly
served customers, consisting primarily of federal agencies and customers with large or


1
    Meter constants, also referred to as meter multipliers, are the multipliers used to convert meter kilowatt
    hours readings to actual kilowatt hours.
Robin E. Manning
Page 2
March 27, 2013



unusual loads. In fiscal year 2012, the revenues generated from TVA’s electricity sales
were $11.1 billion and accounted for virtually all of TVA’s revenues.

In order for TVA to properly invoice its customers, TVA must have accurate meter
readings. Inaccurate meter readings could cause a significant billing error. Recent
examples include three inappropriately configured meters at Memphis Light, Gas and
Water Division resulting in an overbilling of approximately $24 million; and two meter
issues at Nashville Electric Service resulting in an overbilling of approximately $21 million
and an underbilling of approximately $3 million.

TVA-owned meters are tested as part of the preventative maintenance program. The
meters are tested for functionality and accuracy. Adjustments are made if necessary, and
the meter may be replaced if adjustments cannot be made to restore the required
accuracy. TVA utilizes the Maximo system as the inventory system-of-record for its
meters and to track actions taken as part of the preventative maintenance program. The
IEE system contains information such as meter constants necessary to read the meter
and actual meter readings. This information is communicated to the Lodestar system for
use in billing customers.

Since meter testing is a key internal control in its revenue recognition process after the
move from end-use billing to wholesale billing, we planned an audit to determine the
adequacy of TVA’s process for testing meters that are owned and read by TVA.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our audit objective was to determine the adequacy of meter testing for meters owned and
read by TVA (i.e., meters at delivery points to distributors, direct serve/federal/
industrial customers, and distributor-served, end-use customers that have a TVA-owned
meter) by:

   Evaluating whether TVA meter testing policies and procedures meet or exceed
    identified industry standards.
   Verifying TVA tested meters within the applicable time limits in compliance with TVA
    meter testing policies and procedures.
   Determining if TVA has processes in place to identify all meters used to capture data
    for wholesale billing purposes.

This audit was performed to determine the efficiency and effectiveness of TVA’s meter
testing internal control and as such, each of our audit findings is related to deficiencies in
internal control in the context of the audit objectives and based upon the audit work
performed. To achieve our objective, we:

   Reviewed TVA meter testing policies to obtain an understanding of the process,
    procedures, and controls related to TVA meter testing.
   Identified National Institute of Standards and Technology (NIST) standards related to
    the calibration of testing equipment. Compared TVA meter testing equipment policies
Robin E. Manning
Page 3
March 27, 2013



    to NIST standards to determine whether TVA policies and procedures meet or exceed
    industry standards.
   Reviewed information pertaining to meter testing equipment to determine how TVA
    ensures the accuracy of meter testing.
   Reviewed a sample of meter testing reports to determine compliance with TVA meter
    testing policies and procedures related to timeliness. To determine compliance, we
    used ACL software to select a random sample of 73 TVA-owned revenue meters from
    the population of 1,450 active meters in the Maximo system sent to us on July 3, 2012.
    The results of the sample may be projected as statistical sampling was used.
   Compared meter inventories in TVA systems to determine completeness of meter
    inventory.
   Reviewed TVA policies and interviewed TVA personnel to determine how TVA
    ensures all revenue meters are tested and meter inventory is complete.

When evaluating the results of our audit work, we used both qualitative and quantitative
factors when considering the significance of an item. The quantitative factor(s) considered
in determining an item’s significance were (1) percentage of meters tested outside the
acceptable limits of accuracy, (2) percentage of meters not tested as scheduled, and
(3) whether the dollar value of an error(s) exceeded .5 percent of TVA’s 2011 revenue,
which was about $11.7 billion. The qualitative factor(s) considered in determining an
item’s significance were if (1) meter testing policies and procedures did not meet industry
standards or (2) the item impacted system reliability, TVA revenue, or reputation by
violating the meter testing policies and procedures.

The scope of the audit was TVA meter testing policies and procedures in place during our
fieldwork, meter testing performed between April 2011 and September 2012, and industry
standards. Fieldwork was conducted between July 2012 and December 2012. This
performance audit was conducted in accordance with generally accepted government
auditing standards. Those standards require we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.

FINDINGS

TVA’s meter testing (1) complies with TVA policies and procedures regarding timeliness
and (2) meets identified industry standards regarding meter testing equipment. However,
we noted areas for improvement in TVA’s meter testing processes. Specifically,

   Meter constants are not verified except at initial installation.
   Meter information is not reconciled between TVA’s preventative maintenance,
    inventory, and billing systems.
   Testing documentation consistency could be improved.

The following provides a more detailed discussion of each of our findings.
Robin E. Manning
Page 4
March 27, 2013



Testing Performed Within the Applicable Time Limits and Testing Equipment Meets
Calibration Standards
According to TVA policies and procedures, revenue meters are generally tested on a
48- or 60-month rotation as part of the preventative maintenance program. The program
allows for a 25-percent leeway up to one year past the due date. We selected a random
sample of 73 TVA-owned revenue meters from a listing of 1,450 active meters in the
Maximo system to determine whether meters were tested within the applicable time limits.
We reviewed testing documentation and noted all of the meters in our sample had been
tested within the applicable time limit. Additionally, documentation provided by TVA
indicated its meter testing equipment was calibrated according to the NIST calibration
standard for meter testing equipment.

Meter Constants Not Verified Except at Initial Installation
A customer’s usage and demand from the meter reading is multiplied by the meter
constant to arrive at the customer’s billed usage and demand amounts. Therefore, it is
important that meter constant information in the meter inventory and billing systems is
accurate because a small error in the meter constant could potentially cause a significant
billing error. A recent example of this occurred when TVA overbilled a distributor
approximately $21 million because a meter constant in TVA’s billing system did not reflect
what was actually established per the meter.

We were unable to compare the meter constants in the billing system to the testing
documentation for the 73 sampled meters because TVA’s preventative maintenance
program does not require meter constants to be tested or verified except at initial
installation. Therefore, any meter constants information included on the testing forms
provided was arbitrary. The testing and/or documenting of meter constants as a part of
routine preventative maintenance would allow for verification of their accuracy in the meter
inventory and billing systems.

At the time of the audit, a policy was not in place requiring the testing and/or documenting
of meter constants except at initial installation. However, TVA personnel stated a policy to
begin testing and/or documenting meter constants as part of the preventative
maintenance program was instituted during November 2012. As of January 7, 2013, the
written policies had not yet been updated to reflect these changes.

Meter Information in TVA Systems is Not Reconciled
TVA utilizes the Maximo system as the inventory system-of-record for its meters and to
track actions taken as part of the preventative maintenance program. The IEE system
contains information such as meter constants necessary to read the meter and actual
meter readings. This information is communicated to the Lodestar system for use in
billing customers. According to TVA personnel, a reconciliation has not been performed
between the three systems.

We attempted to reconcile the meters listed in the three systems and found discrepancies
that TVA was unable to explain. This information was given to TVA for further follow-up.
Complete and accurate meter information in all three systems is important to ensure all
meters are billed correctly and tested. When accounting for TVA revenue, even a fraction
of a percent of accuracy can mean the difference of thousands of dollars. Reconciliation
Robin E. Manning
Page 5
March 27, 2013



of these three systems could prevent and/or detect an error, which could affect customer
billing and TVA revenue.

Testing Documentation Could be Improved
According to TVA personnel, there are no requirements for specific testing documentation
to be completed, reviewed, and maintained. TVA was able to provide testing
documentation for all of the 73 sampled meters. However, the information included on the
documentation was not consistent. Having formal documentation requirements could
improve the consistency of testing and communication of test results.

RECOMMENDATIONS

We recommend TVA’s Executive Vice President and Chief Energy Delivery Officer
(1) formalize the policy for testing and/or documenting meter constants as part of
preventative maintenance, (2) develop a process or procedure for reconciling meter
information included in the Maximo, IEE, and Lodestar systems, and (3) develop
guidelines for acceptable documentation of meter tests including information
requirements, review, and maintenance.

TVA Management’s Comments – TVA management agreed with the audit findings and
recommendations in the report. TVA management provided clarifying information, and we
have revised our report based on this information. In response to our recommendations,
the Vice President, Transmission Operations and Maintenance, has agreed to
(1) formalize the policy to validate the equipment ratios (meter constants); (2) reconcile
the differences identified in the Maximo, IEE, and Lodestar systems identified during the
audit; and (3) complete a review of required documentation and performance expectations
relative to consistency of data recording. See the Appendix for TVA’s complete response.

Auditor’s Response – The Office of the Inspector General concurs with TVA
management’s planned actions.

                          -      -       -      -      -       -

Please notify us within one year from the date of this memorandum when final action is
complete. Information contained in this report may be subject to public disclosure. Please
advise us of any sensitive information in this report that you recommend be withheld.
Robin E. Manning
Page 6
March 27, 2013



If you have questions or need additional information, please contact me at (865) 633-7373
or Rick C. Underwood, Director, Corporate Governance and Finance Audits, at
(423) 785-4824. We appreciate the courtesy and cooperation received from your staff
during the audit.




David P. Wheeler
Deputy Assistant Inspector General
 (Audits)
ET 3C-K

MAD:DBS
Attachment
cc (Attachment):
     Tracy A. Flippo, MR 5K-C
     Peyton T. Hairston, Jr., WT 7B-K
     Joseph J. Hoagland, WT 7C-K
     William D. Johnson, WT 7B-K
     Richard W. Moore, ET 4C-K
     Emily J. Reynolds, OCP 1L-NST
     Robert B. Wells, WT 9B-K
     Andrea L. Williams, WT 9B-K
     Jacinda B. Woodward, MR 1B-C
     OIG File No. 2012-14607
APPENDIX
Page 1 of 4
APPENDIX
Page 2 of 4
APPENDIX
Page 3 of 4
APPENDIX
Page 4 of 4
